No. _________
IN THE SUPREME COURT OF THE UNITED STATES

EDUARDO PENA-GARCIA,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

PETITION FOR A WRIT OF CERTIORARI
APPENDIX

INDEX TO APPENDICES
Appendix A Judgment and Opinion of Fifth Circuit
Appendix B Judgment and Sentence of the United States District Court for the
Northern District of Texas

APPENDIX A

Case:

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED
October 9, 2020

No. 20-10240
Summary Calendar

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Eduardo Pena-Garcia,
Defendant—Appellant.
Appeal from the United States District Court
for the Northern District of Texas
No. 4:19-CR-294-1
Before King, Smith, and Wilson, Circuit Judges.
Per Curiam:*
Eduardo Pena-Garcia appeals the sentence imposed on his guilty-plea
conviction of illegal reentry following removal. See 8 U.S.C. § 1326(a). The
guideline range was 2 to 8 months, but the district court upwardly departed
to 15 months, using U.S.S.G. § 4A1.3, p.s. Pena-Garcia contends that the

*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this opinion should not be published and is not precedent except under the limited circumstances
set forth in 5th Circuit Rule 47.5.4.

No. 20-10240

sentence is substantively unreasonable because it represents a clear error in
judgment in balancing the sentencing factors.
This court reviews “the substantive reasonableness of the sentence
imposed under an abuse-of-discretion standard.” Gall v. United States,
552 U.S. 38, 51 (2007). In reviewing an upward departure, we evaluate “the
district court’s decision to depart upwardly and the extent of that departure
for abuse of discretion.” United States v. Zuniga-Peralta, 442 F.3d 345, 347
(5th Cir. 2006) (internal quotation marks and citation omitted). There is no
abuse of discretion if the district court’s reasons for departing advance the
objectives of 18 U.S.C. § 3553(a)(2) and “are justified by the facts of the
case.” Id. (quotation marks and citation omitted); see also United States v.
Zelaya-Rosales, 707 F.3d 542, 546 (5th Cir. 2013).
Pena-Garcia asserts that his accumulation of five criminal history
points and his placement in criminal history category III resulted from relatively minor offenses. He does not contend that the district court erred in
considering his pending state charge of aggravated assault with a deadly weapon, but he notes that even a conviction and sentence on the pending state
charge would not have placed him in criminal history category V, the category used by the district court. With regard to the district court’s consideration of his voluntary returns and deportations to Mexico, Pena-Garcia
asserts, in abbreviated fashion, that there was not sufficiently reliable information in the presentence report that indicates he could or should have
received criminal history points for such incidents.
The information in the presentence report generally is presumed to be
reliable. United States v. Nava, 624 F.3d 226, 231 (5th Cir. 2010). PenaGarcia has not shown that the district court erred in considering such information. See United States v. Gomez-Alvarez, 781 F.3d 787, 796 (5th Cir. 2015).
Nor has he shown that the court erred in relying on his voluntary returns and

2

No. 20-10240

deportations in upwardly departing under § 4A1.3. See Zuniga-Peralta,
442 F.3d at 347-48 (affirming an upward departure under § 4A1.3 where the
court relied, inter alia, on the defendant’s “multiple deportations”).
Further, we are satisfied that the reasons given by the district court for
upwardly departing advance the objectives of § 3553(a)(2), such as promoting respect for the law and affording adequate deterrence to criminal conduct, and we conclude that the reasons are justified by the facts. See
§ 3553(a)(2)(A), (B); Zuniga-Peralta, 442 F.3d at 347. Moreover, the extent
of the departure is well within the range we have upheld in illegal-reentry
cases. See, e.g., Zuniga-Peralta, 442 F.3d at 347−48 (affirming upward departure from a guideline range of 27−33 months to a sentence of 60 months);
United States v. Herrera-Garduno, 519 F.3d 526, 531−32 (5th Cir. 2008)
(affirming upward departure from guideline range of 21−27 months to a sentence of 60 months).
AFFIRMED.

3

APPENDIX B

Case 4:19-cr-00294-Y Document 37 Filed 02/28/20

Page 1 of 3 PageID 89

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
Fort Worth Division

UNITED STATES OF AMERICA

JUDGMENT IN A CRIMINAL CASE

v.

Case Number: 4:19-CR-294-Y(1)
M. Levi Thomas, assistant U.S. attorney
John J. Stickney, attorney for the defendant

EDUARDO PENA-GARCIA

On November 26, 2019, the defendant, Eduardo Pena-Garcia, entered a plea of guilty to count one of the
one-count indictment. Accordingly, the defendant is adjudged guilty of such count, which involves the following
offense:
TITLE & SECTION

NATURE OF OFFENSE

OFFENSE CONCLUDED

COUNT

8 U.S.C. § 1326(a)

Illegal Reentry After Deportation

July 18, 2019

1

The defendant is sentenced as provided in pages two through three of this judgment. The sentence is imposed
under Title 18, United States Code § 3553(a), taking the guidelines issued by the United States Sentencing
Commission under Title 28, United States Code § 994(a)(1), as advisory only.
The defendant shall pay immediately a special assessment of $100.00 for count one of the one-count
indictment.
The defendant shall notify the United States attorney for this district within thirty days of any change of
name, residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment
are fully paid.
Sentence imposed February 25, 2020.

_______________________________
TERRY R. MEANS
UNITED STATES DISTRICT JUDGE
Signed February 28, 2020.

Case 4:19-cr-00294-Y Document 37 Filed 02/28/20

Page 2 of 3 PageID 90

Judgment in a Criminal Case
Defendant: Eduardo Pena-Garcia
Case Number: 4:19-CR-294-Y(1)

Judgment -- Page 2 of 3

IMPRISONMENT
The defendant, Eduardo Pena-Garcia, is hereby committed to the custody of the Federal Bureau of Prisons
to be imprisoned for a term of 15 months on count one of the one-count indictment, to run consecutively to any future
sentence that may be imposed in case no. 1604532D in the 432nd Judicial District Court, Tarrant County, Texas.
The defendant is remanded to the custody of the United States marshal.

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be placed on supervised release for a term of one year
on count one of the one-count indictment.
Pursuant to 18 U.S.C. § 3583(d), as a condition of supervised release upon the completion of the sentence of
imprisonment, the defendant shall be surrendered by the Federal Bureau of Prisons to a duly authorized immigration
official for deportation in accordance with the established procedures provided by the Immigration and Nationality
Act, 8 U.S.C. § 1101 et seq. As a condition of supervised release, if ordered deported, the defendant shall remain
outside the United States.
In the event the defendant is not deported immediately upon release from imprisonment, or should the
defendant ever be within the United States during any portion of the term of supervised release, the defendant shall
comply with the standard conditions recommended by the U.S. Sentencing Commission at §5D1.3(c) of the
Sentencing Guidelines, and shall:
( 1)
( 2)
( 3)
( 4)
( 5)
( 6)
( 7)

( 8)
( 9)
(10)
(11)
(12)
(13)

(14)
(15)
(16)
(17)

not leave the judicial district without the permission of the Court or probation officer;
report to the probation officer in a manner and frequency directed by the Court or probation officer;
answer truthfully all inquiries by the probation officer and follow the instructions of the probation
officer;
support the defendant's dependents and meet other family responsibilities;
work regularly at a lawful occupation unless excused by the probation officer for schooling, training,
or other acceptable reasons;
notify the probation officer within seventy-two (72) hours of any change in residence or
employment;
refrain from excessive use of alcohol and not purchase, possess, use, distribute, or administer any
narcotic or other controlled substance, or any paraphernalia related to such substances, except as
prescribed by a physician;
not frequent places where controlled substances are illegally sold, used, distributed, or administered;
not associate with any persons engaged in criminal activity and not associate with any person
convicted of a felony unless granted permission to do so by the probation officer;
permit a probation officer to visit the defendant at any time at home or elsewhere and permit
confiscation of any contraband observed in plain view by the probation officer;
notify the probation officer within seventy-two (72) hours of being arrested or questioned by a law
enforcement officer;
not enter into any agreement to act as an informer or a special agent of a law enforcement agency
without the permission of the Court;
notify third parties of risks that may be occasioned by the defendant's criminal record or personal
history or characteristics, and permit the probation officer to make such notifications and to confirm
the defendant's compliance with such notification requirement, as directed by the probation officer;
not commit another federal, state, or local crime;
not unlawfully possess illegal controlled substances;
shall not possess a firearm, destructive device, or other dangerous weapon;
cooperate in the collection of DNA as directed by the probation officer as directed by the probation
officer, as authorized by the Justice for All Act of 2004;

Case 4:19-cr-00294-Y Document 37 Filed 02/28/20

Page 3 of 3 PageID 91

Judgment in a Criminal Case
Defendant: Eduardo Pena-Garcia
Case Number: 4:19-CR-294-Y(1)
(18)

(19)
(20)

Judgment -- Page 3 of 3

report in person to the probation office in the district to which the defendant is released from the
custody of the Federal Bureau of Prisons, or in which the defendant makes entry into the United
States, within 72 hours of release or entry;
not illegally re-enter the United States, if deported, removed, or allowed voluntary departure;
refrain from any unlawful use of a controlled substance. The defendant must submit to one drug test
within 15 days of placement on probation and at least two periodic drug tests thereafter, as
determined by the court; and

FINE/RESTITUTION
The Court does not order a fine or costs of incarceration because the defendant does not have the financial
resources or future earning capacity to pay a fine or costs of incarceration.
Restitution is not ordered because there is no victim other than society at large.

RETURN
I have executed this judgment as follows:

Defendant delivered on ___________________________ to ____________________________________
at ____________________________________________________________, with a certified copy of this judgment.

United States marshal

BY ________________________________
deputy marshal

